~\

OCKLE

2311 Douglas Street A ‘ BAAN
Omaha, Nebraska 68102-1214 Leg al Briefs

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 a

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 ;

No. 19-1056

KRISTI NOEM, Governor of the State of
South Dakota, JAMES TERWILLIGER, Secretary,
South Dakota Department of Revenue,
Petitioners,

Vv.

FLANDREAU SANTEE SIOUX TRIBE,
a Federally-Recognized Indian Tribe,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 2988 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

eee Alooo/ Ouadme-tt: Ohler

My Comm. Exp. September 5, 2023
Affiant 39780

    

Notary Public
